THE LAW OFFICES OF
MUSCO & IASSOGNA

 

Patricia Boyce Tassogna 555 LONG WHARF DRIVE Michelle Gramlich®
Joseph M. Musco* ‘THE 10” FLOOR Jessica Z. Wragg

Jill P. Hallihan NEW HAVEN, CT 06511 ALSO ADMITTED INNEW YORK
= CERTIFIED CIVIL TRIAL ADVOCATE TEL: (203) 782-4122

 

NATIONAL BOARD OF TRIAL ADVOCACY FAX: (208) 782-4128

October 30, 2019

Honorable Scott S. Harris
Clerk

United States Supreme Court
Washington, D.C. 20543

Re: Metcalf v. Fitzgerald, et al.
S.Ct. No. 19-490

Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned case was filed on October 15,
2019, and placed on the docket on October 15, 2019. The respondents’ response is due on
November 14, 2019.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 16 2019, within which to file our response.

This extension is requested due to counsel’s numerous commitments to other clients as
well as the need to consult with assisting counsel who is familiar with Supreme Court process,
procedure, and substantive law in order to ensure that the respondents’ position is presented in
the best possible light and their objection is raised properly and not hurriedly presented to the
Court.

Sincerely,

QMijlticae

Joseph Musco

cc: See Attached Service List
19-490

JONATHAN S. METCALF
MICHAEL FITZGERALD, ET AL.

ADAM G. UNIKOWSKY
JENNER & BLOCK, LLP

1099 NEW YORK AVENUE, NW
SUITE 900

WASHINGTON, D.C. 20001
202-639-6000

aunikowsky@jenner.com

BRUCE L. ELSTEIN

GOLDMAN, GRUDER & WOODS, LLC
105 TECHNOLOGY DRIVE
TRUMBULL, CT 06611

ROBERT W. CASSOT
MORRISON, MAHONEY, LLP
ONE CONSTITUTION PLAZA
HARTFORD, CT 06103
